DOE/IG-0006(97)


                  DEPARTMENT OF ENERGY

            OFFICE OF INSPECTOR GENERAL



                   SEMIANNUAL REPORT
                      TO CONGRESS

                     April 1 to September 30, 1997




                         October 1997
                            October 31, 1997

The Honorable Federico Peña
Secretary
Department of Energy
Washington, D.C. 20585

Dear Secretary Peña:

This Semiannual Report for the second half of Fiscal Year 1997 is submitted to
you by the Office of Inspector General for transmittal to the Congress, pursuant
to the provisions of the Inspector General Act of 1978.

During this reporting period, the Office of Inspector General continued to
advise Headquarters and field managers of opportunities to improve the
efficiency and effectiveness of the Department's management controls, with
particular emphasis on coverage of issues addressed in the Department's
Strategic Plan. We also have supported the Department's reinvention and
streamlining initiatives by evaluating the cost effectiveness and overall efficiency
of Department programs and operations, placing special emphasis on key issue
areas which have historically benefited from Office of Inspector General
attention. In addition, we have concentrated on reviewing performance-based
contracts and cost reduction incentive programs. We view these efforts as
assisting the Department in implementing the Government Performance and
Results Act which requires the Department to establish strategic planning and
performance measurement. During this reporting period, we have issued a
number of reports in which we discussed planning and performance
measurement and have other audits or reviews in process or planned for the
next fiscal year that will focus on these areas.

In our Office's planning and operations, we continue to target available audit,
inspection, and investigation resources to our customers’most immediate
requirements. However, the Office of Inspector General faces a continuing
challenge to comply with mandates, such as the Government Management
Reform Act of 1994 which requires audited consolidated financial statements
for the Department of Energy. This and other mandates make it increasingly
difficult to provide the level of audit coverage of the Department that we
consider adequate. Nevertheless, our overall focus remains on assisting
Department management to implement management controls necessary to
prevent fraud, waste, and abuse; helping to ensure the quality of Department
programs and operations; and keeping you and the Congress fully informed.

                                                Sincerely,


                                                John C. Layton
                                                Inspector General
Enclosure
       MISSION AND VISION STATEMENTS




                   MISSION STATEMENT


The Office of Inspector General promotes the effective, efficient,
 and economical operation of Department of Energy programs
 through audits, inspections, investigations and other reviews.




                    VISION STATEMENT


      We do quality work that facilitates positive change.
                                                    CONTENTS

Executive Summary ....................................................................................1

Some Significant Actions.............................................................................3

Consolidated Financial Statements Audit ..................................................7

Section I: Overview

      Mission.......................................................................................................... 11
      Organization and Staffing ............................................................................. 11
      Inspector General Resource Concerns........................................................... 13
      Management Referral System ........................................................................ 13
      Legislative and Regulatory Overview............................................................. 15

Section II: Performance Measures

      Recommendations Accepted/Implemented...................................................... 19
      Audit/Inspection Savings, Recoveries, and Funds Identified for Better Use.... 23
      Legislative & Regulatory Compliance ........................................................... 29
      Complaints Resolved ..................................................................................... 33
      Investigation Recoveries/Fines and Funds ..................................................... 37

Section III: Reports Issued

      Audit Reports ................................................................................................ 43
      Inspection Public Reports.............................................................................. 47
      Reports Availability....................................................................................... 48

Section IV: Statistics

      Definitions..................................................................................................... 51
      Office of Audit Services ................................................................................. 53
      Office of Investigations.................................................................................. 57
      Office of Inspections...................................................................................... 58
                        EXECUTIVE SUMMARY

        OVERALL ACTIVITY                           implemented by management, could
                                                   result in $211.7 million being put to
     This Office of Inspector General              better use. Furthermore, management
Semiannual Report to the Congress                  has committed to taking corrective
covers the period from April 1 through             actions which the Office of Inspector
September 30, 1997.             The report         General estimates will result in a more
summarizes significant audit, inspection,          efficient use of funds totaling $57
and investigative accomplishments for              million. Office of Inspector General
the reporting period which facilitated             actions      in    identifying     attainable
Department of Energy management                    economies        and      efficiencies     in
efforts to improve management controls             Departmental operations have recently
and ensure efficient and effective                 provided a positive dollar impact of
operation of its programs.                         about $3.2 million per audit employee
     Narratives of the Office’s most               per year for the fiscal years 1993 through
significant reports are grouped by                 1997.
measures which the Office of Inspector                   Office    of    Inspector      General
General uses to gauge its performance.             investigations led to 7 criminal
The common thread tying the                        convictions, as well as criminal and civil
performance measures together is their             prosecutions which resulted in fines and
emphasis on supporting the Department              recoveries of approximately $1.95
efforts to produce high quality products           million. The Office of Inspector General
at the lowest possible cost to the                 also provided 9 investigative reports to
taxpayer.       The five performance               management for recommending positive
measures used during this semiannual               change.
period to present outcomes of Office of
Inspector General work in improving                  OIG RESOURCE LIMITATIONS
Departmental programs and operations
are as follows: (1) Recommendations                      Between October 1993 and October
Accepted       or      Implemented        by       1997, the Office of Inspector General’s
Management, (2) Audit and Inspection               staffing has decreased by 32 percent.
Savings,     Recoveries,      and     Funds        During this period, a number of mandates
Identified for Better Use, (3) Legislative         have been placed upon the Office of
and Regulatory Compliance Related to               Inspector General. A primary example is
Office      of      Inspector       General        the Government Management Reform
Recommendations,         (4)     Complaints        Act of 1994 under which the Office of
Resolved,      and     (5)     Investigation       Inspector General is responsible for
Recoveries/Fines and Funds Identified              auditing the consolidated financial
for Better Use.                                    statements of the Department. This
     During this reporting period, the             effort consumes about 47 staff years
Office of Inspector General issued 59              including the services of a private
reports.       These reports included              accounting firm with specialists in the
recommendations            that,       when        areas of petroleum engineering, cost


                                               1
                        EXECUTIVE SUMMARY

modeling and actuarial services.                       Although the followup system is
     As a result of mandated tasks or             operated by the Department’s Chief
additional costs, the Office of Inspector         Financial Officer, the Office of Inspector
General is serving fewer customers and            General reviews the progress of
has diverted resources from other                 corrective actions on audit and inspection
reviews that had focused on significant           reports.    In addition, the Office of
programs and operations where major               Inspector General conducts periodic
vulnerabilities may exist.                        followup audits or verifications of prior
     Our resource constraints have also           audit      and       inspection     report
led to a higher threshold for investigative       recommendations implementation and
case openings and inspection of                   effectiveness. Also, at the start of each
administrative allegations, resulting in          new audit or inspection, the Office of
less coverage and less deterrent.                 Inspector General conducts a review of
                                                  prior reports on related topics, a review
TRACKING AND REPORTING ON                         of the recommendations included in these
    THE STATUS OF OIG                             prior reports, and an evaluation of the
    RECOMMENDATIONS                               corrective actions that were taken.
                                                       During this reporting period, there
     The Inspector General Act of 1978            was no unreasonable refusal by
requires that the Office of Inspector             management to provide data to the
General Semiannual Report to Congress             Office of Inspector General.
identify all significant recommendations
described in previous Semiannual
Reports where corrective action has not
been completed. The Department of
Energy’s Office of Executive Operations
and Planning within the Office of Chief
Financial Officer oversees the audit
followup system.        Thus, information
concerning incomplete corrective action
is included as part of the companion
submission to this report which is
provided to the Secretary of the
Department             of         Energy.




                                              2
                    SOME SIGNIFICANT ACTIONS
The Office of Inspector General completed significant audit, inspection, and investigative reviews of
Department of Energy programs and operations during this reporting period. These reviews include:

     Auditor Receives the Department’s
        Exceptional Service Award                         Management and Operating Contractors
                                                          Underreport Occupational Safety Work-
      In August 1997, the United States Court of          Related Injuries and Illnesses (IG-0404)
Federal Claims affirmed the Department of
Energy’s claims of $11.7 million in unallowable               An audit disclosed that management and
costs plus $2.2 million in interest from                operating contractors were not reporting all
Westinghouse Savannah River Corporation.                significant work-related injuries or illnesses as
That judgment, one of the largest of its kind in        required by Departmental and Occupational
the Department’s history, was the result of hard        Safety and Health Administration (OSHA)
work and cooperation between the Office of              guidelines. Through an analysis of selected
Inspector General, the Department, and the              medical and workers compensation data for
Department of Justice. The Office of Inspector          contractors at the Savannah River and Lawrence
General auditor who originally identified the           Livermore sites, the audit identified 111 of 237
unallowable costs worked with attorneys from            Calendar Year 1995 cases that were incorrectly
the Departments of Energy and Justice to perfect        categorized as minor. These cases should have
and present the Government’s claims. In an              been reported to the Department as significant
unprecedented action, the Manager, Savannah             injuries or illnesses. Injuries and illnesses were
River Operations Office, presented the                  underreported because (1) contractor personnel
Department’s Exceptional Service Award to the           did not obtain sufficient medical, restricted work
auditor in recognition of his outstanding work.         activity, or lost worktime information relating to
                                                        the injury or illness, and/or (2) they did not
Audit Finds Weaknesses in Establishing and              properly       interpret     OSHA         reporting
    Implementing Intra-Departmental                     requirements.
 Requisitions Policies and Procedures (IG-
                    0403)                               Audit Identifies Need to Implement Effective
                                                         Management of Scientific and Technical
      An Office of Inspector General audit                         Information (IG-0407)
disclosed that the Department’s management
and operating contractors did not use intra-                  An Office of Inspector General audit
Departmental requisitions appropriately for 40          examined the Department’s system for
of the 104 requisitions reviewed.           The         managing scientific and technical information.
Department did not always receive the most cost         The audit disclosed that the scientific and
effective goods and services.       Specifically,       technical information generated by management
Department contractors used these                       and operating contractors was not managed
                                                        appropriately.
                                                              As a consequence, the Department was not
requisitions to (1) acquire goods and services          in a position to know whether it received value
that were commercially available; (2) obtain            for its significant investment in research and
goods and services that were not part of the            development or whether all scientific and
performing contractor’s mission; (3) procure the        technical information resulting from these
services of subcontractors; and (4) augment             efforts    received    the      widest  possible
staff. For example, on two requisitions at a            dissemination in the scientific community.
specific site, the Department could have saved
almost $850,000 out of a $1.6 million                    Shutdown of Mound Plant Could Save $4 to
procurement if the prime contractors had                       $8 Million Annually (IG-0408)
competed the acquisitions.



                                                    3
                     SOME SIGNIFICANT ACTIONS
      The Office of Inspector General performed          determined that the Department’s Los Alamos
an audit to determine if keeping a portion of the        National Laboratory did not generate the
Mound Plant open solely to support the isotopic          information needed to assess whether specific
heat sources and radioisotope thermoelectric             sites were remediated cost effectively. This
generators (HS/RTGs) was in the best interest of         situation occurred because the performance
the Department and the Government. The audit             criteria used to evaluate cost effectiveness were
found that the Department has decided to                 not always reasonable, measurable, and
continue assembling and testing HS/RTGs at the           complete. As a result, neither Los Alamos nor
plant despite the transfer or planned transfer of        the Department could evaluate the cost
all other production operations. This decision           effectiveness or progress of the remediation
was made without adequately considering the              program or accurately budget for upcoming
Department’s overall economic goals. As a                remediation activities.
result, the Department may incur $4 million to                  The audit also showed that Los Alamos’
$8.5 million more than necessary each year to            sample validation procedures were not cost
continue HS/RTG operations at the Mound                  effective because Los Alamos validated more
Plant. Additionally, if the HS/RTG operations            samples than called for by Federal and New
remain at the Mound Plant, the Department will           Mexico standard practices. As a result, it was
spend at least $3 million to move the operations         determined that Los Alamos paid up to
into new facilities.                                     $540,000 more than necessary to validate
                                                         results.
Audit Discloses Approximately $23.8 Million
         in Contract Overcharges                           Rocky Flats Needs to Improve its Use of
                 (IG-0409)                                 Performance-Based Contracts (IG-0411)

      An Office of Inspector General audit found               The Department of Energy uses
that an electric power cooperative overcharged           performance-based contracts and cost reduction
Western          Area Power Administration               incentive programs to motivate contractors to
approximately      $23.8      million.       These       reduce costs by employing innovative practices
overcharges occurred because the cooperative             and to encourage and reward superior, results-
did not perform several actions properly. For            oriented performance through a clearly defined
example, the cooperative billed Western                  performance measure incentive program. An
prematurely for lease and interest costs;                Office of Inspector General audit found that the
overcharged for the cost of coal by including            Rocky Flats Field Office approved three Kaiser-
administrative and general expenses and profit,          Hill Company cost reduction proposals that did
as well as incorrectly calculating discounts,            not meet the Department’s basic criteria for cost
royalty payments and imputed interest costs; and         reduction proposals. These proposals, valued at
made faulty calculations of amortization rates           $16 million by Rocky Flats, were not innovative
for deferred costs. In addition to the $23.8             and generally did not return savings to the
million in overcharges, the audit estimated              Department. Rocky Flats, however, awarded
interest accrued on the overcharges through              Kaiser-Hill almost $5.6 million for its share of
December 31, 1996, to be approximately $22.1             those proposals. Because Kaiser-Hill did not
million, resulting in a total of $45.9 million due       always return savings as stipulated in the
Western.                                                 Department’s guidance, Rocky Flats used
                                                         program funding to pay Kaiser-Hill for the
     Audit Finds More Data is Needed to                  proposals.
      Determine Cost Effectiveness of                          In addition, the audit disclosed that the
      Contaminated Site Remediation                      Kaiser-Hill contract included performance
                 (IG-0410)                               measures that were not always supported by
                                                         objective data, were not always structured to
     An Office of Inspector General audit                encourage and reward superior performance,



                                                     4
                    SOME SIGNIFICANT ACTIONS
and were often focused on a process rather than            Department Employee Illegally Obtains
the results of that process. For meeting such              Pension and Salary Benefits (I96RL015)
performance measures, Rocky Flats paid about
$6.9 million in incentive fees.                               The Office of Inspector General received
                                                        an allegation that a Department of Energy
  Two Former Community Action Agency                    employee      submitted     false   Government
  Directors Fraudulently Obtain Federally               employment documents to obtain pension and
 Funded Weatherization Funds (190CH007)                 salary benefits to which she was not entitled.
                                                        The Office of Inspector General conducted a
      A joint investigation between the Office of       joint investigation with the Office of Personnel
Inspector General and the Federal Bureau of             Management’s Office of Inspector General. The
Investigation confirmed allegations that a              investigation resulted in the employee pleading
community action agency in Lansing, Michigan,           guilty to one count of Theft of Government
had fraudulently obtained Federal funds,                Property. The employee was sentenced to 6
including the Department’s weatherization               months
funds. The investigation focused on allegations
of bribery, kickbacks, theft, and embezzlement
from a federally funded program.             The
investigation led to indictments against two
former directors of the agency. One of the
former directors pleaded guilty, was sentenced
to 30 months incarceration, and fined $18,000.
The other former director was apprehended as a
fugitive in November 1996. He was sentenced
to 10 years imprisonment and ordered to pay
$150,000 in restitution.

   Oak Ridge Operations Subcontractor
 Employee is Convicted for Submitting False
         Time Cards (I95OR004)

      The Office of Inspector General received
an allegation from an Oak Ridge Operations
Office contractor that a subcontractor employee
had obtained wages for days he did not work.
The investigation determined that the
subcontractor     employee     had     submitted
fraudulent time cards from January 1993
through November 1994.
      The investigation was referred to the U.S.
Attorney’s Office for the Eastern District of
Tennessee. The subcontractor employee pleaded
guilty to one count of false claims. He was
sentenced to 4 months imprisonment and 4
months home confinement, and was assessed a
$50 fine.     The employee reimbursed the
subcontractor $44,542 and the subcontractor
reimbursed the Department $49,062 (cost of the
fraudulent wages plus administrative costs).




                                                    5
                   SOME SIGNIFICANT ACTIONS
home detention with electronic monitoring, and             A joint task force investigation determined
1 year probation. The employee was also              that the subgrantee did not have adequate
ordered to pay restitution of $100,483 and was       documentation to support many of the homes it
levied a fined of $2,944.                            claimed to have weatherized. This resulted in
                                                     the primary grantee overpaying the subgrantee
  A Department of Energy Weatherization              for homes that were never weatherized.
  Subgrantee Submits Unsupported Claims                    An Administrative Report to Management
               (I95AL035)                            recommended the recovery of funds for
                                                     unsupported weatherization projects.          The
     The Office of Inspector General received        Contracting Officer reported that the grantee
information from the Federal Bureau of               reimbursed the Department $75,280.23 for the
Investigation that a U.S. Department of Energy       subgrantee’s unsupported costs.
Weatherization Assistance Program subgrantee
may have defrauded the Government.




                                                 6
     CONSOLIDATED FINANCIAL STATEMENTS
                   AUDIT

                                                 statements. The Office of Inspector
The Office of Inspector General's Office         General has revised its approach for the
of Audit Services is responsible for             Fiscal Year 1997 audit to implement
auditing the Department of Energy's              lessons learned during the previous
Consolidated Financial Statements as             audits. As a result of these lessons and
required      by     the      Government         resulting improvements, the Fiscal Year
Management Reform Act of 1994.                   1997 audit will realize a number of
        The successful completion of the         economies in reduced staff time.
Fiscal Year 1996 audit was especially            However, the impact of these economies
noteworthy because the Department was            on the overall resource demands of the
one of only six agencies that received an        financial statement audit and related
unqualified opinion on its financial             requirements will be more than offset by
statements and the audit report and              increasing demands that expand the
accompanying statements were issued by           scope of the audit.        For example,
the statutory reporting date of March 1,         pursuant to the Federal Financial
1997. Furthermore, the audit effort              Management Improvement Act, the
involved was unprecedented in the Office         Office of Inspector General will report
of Inspector General. The audit was              for the first time, as part of its audit
nationwide and included 29 of the                report, on whether the Department's
Department's 60 reporting entities.              financial       management        systems
These entities controlled approximately          substantially comply with Federal
94 percent of the Department's total             Financial       Management         System
assets, and processed significant portions       Requirements, Accounting Standards,
of the Department's total revenues,              and requirements for the Standard
obligations, and expenses. In addition to        General Ledger at the transaction level.
the audit report on the consolidated                   As reported in previous Semiannual
statements, the Office of Inspector              Reports, the increased workload and
General issued 13 local management               associated resource demand is a special
reports that identified needed financial         concern of the Office of Inspector
management improvements at these                 General given the decreasing resources
reporting entities.    The Office of             available to meet statutory requirements
Inspector General has begun work on the          for financial and performance audits.
audit of the Department’s
Fiscal Year 1997 consolidated financial




                                             7
                                    SECTION I




                                OVERVIEW



        This section describes the mission, staffing and organization of the Office of
Inspector General, and discusses key Office of Inspector General concerns which have
potential to impact the accomplishment of audit, inspection, or investigative work.
                                         OVERVIEW

                    MISSION                               informed, by means of the reports required by
                                                          the Inspector General Act of 1978, concerning
     The Office of Inspector General operates             fraud and other serious problems, abuses and
under the Inspector General Act of 1978, as               deficiencies relating to the administration of
amended, with the following responsibilities:             programs and operations administered or
                                                          financed by the Department of Energy, to
1. To provide policy direction for, and to                recommend corrective action concerning such
conduct, supervise, and coordinate audits and             problems, abuses, and deficiencies, and to report
investigations relating to the programs and               on the progress made in implementing such
operations of the Department of Energy.                   corrective action.

2. To review existing and proposed legislation                 ORGANIZATION AND STAFFING
and regulations relating to programs and
operations of the Department of Energy, and to                  The activities of the Office of Inspector
make recommendations in the semiannual                    General are performed by four offices.
reports required by the Inspector General Act of                The Office of Audit Services provides
1978 concerning the impact of such legislation            policy direction and supervises, conducts, and
or regulations on the economy and efficiency in           coordinates all internal and contracted audit
the administration of programs and operations             activities for Department of Energy programs
administered or financed by the Department, or            and operations. Audits are planned annually
on the prevention and detection of fraud and              through a prioritized work planning strategy
abuse in such programs and operations.                    that is driven by several factors, including the
                                                          flow of funds to Departmental programs and
3. To recommend policies for, and to conduct,             functions, strategic planning advice, statutory
supervise, or coordinate other activities carried         requirements, and expressed needs. The Office
out or financed by the Department of Energy for           of Inspector General audit staff has been
the purpose of promoting economy and                      organized into three regional offices, each with
efficiency in the administration of, or preventing        field offices located at major Department sites:
and detecting fraud and abuse in, its programs            Capital Regional Audit Office, with field offices
and operations.                                           in Washington, DC, Germantown, and
                                                          Pittsburgh; Eastern Regional Audit Office, with
4. To recommend policies for, and to conduct,             field offices located at Cincinnati, Chicago, Oak
supervise, or coordinate relationships between            Ridge, Princeton, and Savannah River; and
the Department of Energy and other Federal                Western Regional Audit Office, with field
agencies, state, and local government agencies,           offices located at Albuquerque, Denver, Idaho
and nongovernmental entities with respect to:             Falls, Las Vegas, Livermore, Los Alamos, and
                                                          Richland.
• All matters relating to the promotion of                      The Office of Investigations performs the
  economy      and    efficiency    in   the              statutory investigative duties which relate to the
  administration of, or the prevention and                promotion of economy and efficiency in the
  detection of fraud and abuse in, programs               administration of, or the prevention or detection
  and operations administered or financed by              of, fraud or abuse in programs and operations of
  the Department.                                         the Department.           Priority is given to
                                                          investigations of apparent or suspected
• The identification and prosecution           of         violations of statutes with criminal or civil
  participants in such fraud or abuse.                    penalties,      including     investigations    of
                                                          procurement fraud, environmental, health and
5. To keep the Secretary of the Department of             safety matters, and matters which reflect on the
Energy and the Congress fully and currently               integrity and suitability of Department officials.



                                                     11
                                        OVERVIEW

Suspected criminal violations are promptly                     The Office of Inspections performs
reported to the Department of Justice for                inspections and analyses, including reviews
prosecutive consideration.      The Office is            based on administrative allegations. In addition,
organized into four regions with field and               the Office investigates contractor employee
satellite offices within each region. The four           allegations of employer retaliation, pursuant to
regions and corresponding offices are:                   Department of Energy Contractor Employee
Northeast regional field office in Washington,           Protection Program (10 CFR Part 708) or
D.C. with satellite offices in Pittsburgh and            Section 6006 of the Federal Acquisition
Cincinnati; Southeast regional field office in           Streamlining Act of 1994. The Office also
Oak Ridge, with a satellite office in Savannah           processes referrals of administrative allegations
River; Northwest regional field office in Denver,        to Department management. The Office of
with satellite offices in Richland, Idaho Falls,         Inspections includes two regional offices. The
and Chicago; and the Southwest regional field            Eastern Regional Office is located in Oak Ridge,
office in Albuquerque, with a satellite office in        Tennessee, with a field office in Savannah
Livermore. The Inspector General Hotline is              River. The Western Regional Office is located
also organizationally aligned within the Office          in Albuquerque, New Mexico, with a field office
of Investigations.                                       in Livermore, California.
                                                               The Office of Resource Management
                                                         directs the development, coordination, and
                                                         execution of overall Office of Inspector General
                                                         management and administrative policy and
                                                         planning. This responsibility includes directing
                                                         the Office of Inspector General’s strategic
                                                         planning process, financial management
                                                         activities, personnel management programs,
                                                         procurement and acquisition policies and
                                                         procedures,      and     information    resources
                                                         programs. In addition, staff members from this
                                                         Office represent the Inspector General at budget
                                                         hearings, negotiations, and conferences on
                                                         financial, managerial, and other resource
                                                         matters.      The Office also coordinates all
                                                         activities of the President’s Council on Integrity
                                                         and Efficiency. The Office is organized into
                                                         three offices: Financial Resources, Human and
                                                         Administrative Resources, and Information
                                                         Resources.




                                                    12
                                      OVERVIEW

   INSPECTOR GENERAL RESOURCE                         • Investigated as a high priority those cases
            CONCERNS                                    with the best potential for successful
                                                        criminal or civil prosecution, and only
      Since the early 1990s, successive                 investigated the remainder as resources
Secretaries of Energy have highlighted the              permit. Criminal cases which did not score
shortage of audit resources as a Department of          high were referred to other law enforcement
Energy material weakness in annual Federal              agencies for their consideration, put on hold
Managers’ Financial Integrity Act reports to            in the event that resources might become
the President.       Now the Department is              available,    referred     to     Department
experiencing significant realignment and                management for action, or delayed
downsizing which may increase vulnerabilities           indefinitely.
and organizational turbulence resulting in
weaker internal controls.         This type of        • Conducted      administrative    allegation
environment would tend to require greater, not          inspections (which are highly focused fact-
less, Office of Inspector General oversight.            finding reviews) only in response to more
      The Office of Inspector General matched           significant allegations of waste or
increased work demands with Fiscal Year 1997            mismanagement.
staffing and funding levels in part by further
reducing the volume of audit, inspection, and           MANAGEMENT REFERRAL SYSTEM
investigation work performed. During Fiscal
Year 1997, we:                                              The Office of Inspections manages and
                                                      operates the Office of Inspector General
• Assisted the Department in implementing             Management Referral System.          Under this
  the Government Performance and Results              system, selected matters received through the
  Act requirements.                                   Office of Inspector General Hotline or other
                                                      sources are referred to the appropriate
• Continued implementation of the Chief               Department managers or other Government
  Financial Officers Act of 1990 and the              agencies for review and appropriate action. We
  Government Management Reform Act of                 referred 152 complaints to Department
  1994 audit requirements.                            management and other Government agencies
                                                      during the reporting period.         We asked
• In coordination with the Department, relied         Department management to respond to us
  on our Cooperative Audit Strategy where             concerning the actions taken on 69 of these
  contractor    internal    audits  provide           matters. Complaints referred to the Department
  reasonable assurances that the procedures           managers included such matters as time and
  used to determine costs and charges to the          attendance abuse, misuse of Government
  Government are accurate, complete, and in           vehicles and equipment, violations of
  compliance with Department contracts.               established policy, and standards of conduct
                                                      violations. The following are examples of the
• Worked highest priority issues, categorized         results of referrals to Department management.
  as “most significant,” and addressed
  remaining issues afterward until resources          • As a result of management’s review, an
  were exhausted.                                       employee who accrued frequent flyer
                                                        mileage credits while on official duty and
• Raised thresholds for accepting complaints            used the credits for personal benefit, was
  for Office of Inspector General action and            suspended for 1 day and was required to
  referred more complaints to Department                repay $3,365.56 for the inappropriately used
  management for resolution.                            travel credits.




                                                 13
                                   OVERVIEW

• Management issued letters of reprimand to        • A Department official received a reprimand
  seven Department employees who accepted            from the Department’s management for
  gratuities in the form of meals from               misusing frequent flyer mileage credits
  Department contractor employees.                   earned while on travel.

                                                   • Management suspended a laboratory
                                                     employee for 1 week without pay because
                                                     the employee had inappropriately disposed
                                                     of hazardous waste.

                                                   • A Department subcontractor performed
                                                     work which was not in compliance with
                                                     contract specifications.    Management
                                                     advised that the work was reaccomplished
                                                     by the subcontractor and a credit was
                                                     negotiated.




                                              14
                                        OVERVIEW

       LEGISLATIVE AND REGULATORY
                OVERVIEW

Congressional Requests                                  Legislative Review

      During the reporting period, congressional              In accordance with the Inspector General
committees or subcommittees, members of                 Act of 1978, the Office of Inspector General is
Congress, and their respective staffs made 60           required to review existing and proposed
requests to the Office of Inspector General. We         legislation and regulations relating to
responded by providing 8 briefings and                  Department program and operations, and to
providing data or reports in 60 instances,              comment on the impact which they may have on
including 12 interim responses and 48 final             economical and efficient operations of the
responses. (Interim responses are provided for          Department. During this reporting period, the
open matters which remain under review by the           Office coordinated and reviewed 15 legislative
Office of Inspector General.)                           and regulatory items.




                                                   15
                                    SECTION II




                PERFORMANCE MEASURES




        Significant Office of Inspector General work is presented in this section under
performance measures which were used to gauge the effectiveness and efficiency of Office
of Inspector General products in meeting the needs and expectations of its customers.
        PERFORMANCE MEASURE:                       Recommendations
                    Accepted or Implemented by Management

Explanation: Management concurs with or implements recommendations contained in a
published Office of Inspector General report. Partial concurrence may be counted as
acceptance if the proposed or implemented action by management is responsive to the
recommendation.

  AN EFFECTIVE MANAGEMENT
 SYSTEM IS NEEDED TO MANAGE                           The audit found that the Department’s
 LEASED PROPERTY EFFICIENTLY                     Headquarters and field sites had also paid an
      AND ECONOMICALLY                           estimated $1.8 million to develop and
                                                 implement a Departmentwide database, while
     The Office of Inspector General             at the same time, the contractors were
performed an audit to determine if the           maintaining their own duplicative database.
Department was using good business               Neither of the systems tracked the property
practices to manage its leased space. The        accurately.
audit found that the Department leased more           The audit report recommended that
space than it used and could not determine       Department      Headquarters     and    Field
future space needs.        These conditions      management limit leased space to the
occurred because the Department did not          minimum amount necessary to perform the
have an effective management system which        Department’s mission by developing
included comprehensive site development          comprehensive site development plans for all
plans or an accurate Departmentwide              geographic locations.       The report also
database. For example, leased space was          recommended that the Department maintain
identified during the audit that was not         an accurate Departmentwide database
previously reported by real estate specialists   including all leased property and that real
or included in the Department’s database. In     estate specialists should coordinate all
addition, the various offices responsible for    leasing efforts with each Departmental office
leasing did not coordinate their leasing         maintaining space in the proposed area.
efforts with each other.                              Management        agreed    with     the
     Additionally, the audit disclosed that,     recommendations and proposed appropriate
despite a 4-year decrease in the number of       corrective actions. (IG-0402)
Departmental and contractor employees, the
total square footage of leased space                AUDIT FINDS WEAKNESSES IN
increased. In addition, the Department’s                ESTABLISHING AND
overall space utilization rate exceeded the           IMPLEMENTING INTRA-
General Services Administration (GSA)              DEPARTMENTAL REQUISITIONS
standard of 153 square feet per person by           POLICIES AND PROCEDURES
approximately 49 percent. In some facilities,
the GSA standard was exceeded by as much              The Department of Energy’s network of
as 300 percent.                                  management and operating contractors, as
                                                 well as other prime contractors procure over



                                            19
          PERFORMANCE MEASURE:                        Recommendations
                       Accepted or Implemented by Management

$270 million annually in goods and services            agreed to initiate action on the
from      one     another    through     intra-        recommendations in the report. (IG-0403)
Departmental requisitions.
     An Office of Inspector General audit              INTERNAL CONTROL WEAKNESSES
disclosed that the Department’s prime                    IDENTIFIED IN GROUNDWATER
contractors did not use intra-Departmental               QUALITY CONTROL PROGRAM
requisitions appropriately for 40 of the 104
requisitions reviewed. As a result, the                     The     Department       of     Energy’s
Department did not always receive the most             management and operating contractor,
cost effective goods and services.                     Westinghouse Savannah River Company,
Specifically, Department contractors used              manages the Savannah River Site’s
these requisitions to (1) acquire goods and            groundwater remediation program, which
services that were commercially available;             includes a quality control program to ensure
(2) obtain goods and services that were not            that the results of laboratory analyses of
part of the performing contractor’s mission;           groundwater samples are accurate and
(3) procure the services of subcontractors;            precise.
and (4) augment staff. On two requisitions                  A recent Office of Inspector General
the Department could have saved almost                 audit disclosed that Westinghouse’s quality
$850,000 out of $1.6 million if the prime              control program was not cost effective.
contractors had used normal procurement                Westinghouse required more quality control
channels and competed the acquisitions. In             analyses than necessary to ensure the
other instances, using intra-Departmental              accuracy and precision of sample results.
requisitions resulted in multiple overhead             This occurred because Westinghouse
rates being added to the cost of the goods             originally designed its groundwater quality
and services procured. Similar to prior audit          control program to secure Departmental
findings, the audit showed weaknesses in               acceptance, and it did not periodically review
issuing     intra-Departmental     requisitions        program requirements to identify and
because contractor procurement officials               eliminate unnecessary analyses. As a result,
have not adequately established or                     about $500,000 of the $895,000 spent on the
implemented policies and procedures.                   program in Calendar Year 1995 was
     The audit report recommended that the             unnecessary.          During     the     audit,
Department issue additional criteria on the            Westinghouse discontinued two types of
use of intra-Departmental requisitions, and            laboratory analyses, resulting in annual
that Department operations establish policies          savings to the Department of about
and procedures over the use of these                   $200,000.           While      acknowledging
requisitions providing a stronger emphasis on          Westinghouse’s accomplishments, the Office
the appropriate use of these requisitions              of Inspector General determined that an
through contractor instruction and annual              additional $300,000 annually could be saved
reviews.                                               by eliminating other nonessential analyses.
     Department management concurred                        The Office of Inspector General audit
with the Office of Inspector General and               recommended that the Manager, Savannah


                                                  20
          PERFORMANCE MEASURE:                        Recommendations
                       Accepted or Implemented by Management

River Operations Office         (1) require            position to know whether it received value
Westinghouse to eliminate split sample                 for its significant investment in research and
analyses from its groundwater quality control          development or whether scientific and
program unless a clear requirement can be              technical information resulting from these
demonstrated; (2) require Westinghouse to              efforts received the widest possible
periodically review the effectiveness of the           dissemination in the scientific community.
groundwater quality control program and                     The Office of Inspector General
modify the laboratory analyses required                recommended that the Deputy Secretary
accordingly; and (3) perform a “for cause”             direct cognizant secretarial officers to
review of Westinghouse’s other quality                 implement a system to track scientific and
control programs.                                      technical information properly. For direct
     The     Manager,    Savannah      River           procurements, the audit recommended that
Operations Office, concurred with the                  the Deputy Secretary reiterate to the field
finding and recommendations. (IG-0405)                 the importance of managing scientific and
                                                       technical information in accordance with
  AUDIT IDENTIFIES NEED TO                             established policies and procedures.
   IMPLEMENT EFFECTIVE                                      In      response      to     the     audit
MANAGEMENT OF SCIENTIFIC AND                           recommendations, the Deputy Secretary
  TECHNICAL INFORMATION                                endorsed a plan proposed by the Director,
                                                       Office of Energy Research that calls for the
     An Office of Inspector General audit              Office of Scientific and Technical
examined the Department’s system for                   Information to initiate and coordinate a
managing        scientific    and     technical        strategic planning process that will engage
information. The audit disclosed that the              the Departmental community in establishing
scientific and technical information generated         goals and objectives for scientific and
by management and operating contractors                technical information. The plan also calls for
was not managed appropriately.           Also,         developing performance measures and
implementation and execution problems                  establishing a quality assurance process.
existed in collecting and disseminating                (IG-0407)
products       generated       under     direct
procurements.                                              AUDIT DISCLOSES NEED TO
     These conditions existed because                    STRENGTHEN CONTROLS OVER
expected deliverables for management and                 MANAGEMENT OF ADP SUPPORT
operating contractors were not identified at                 SERVICES CONTRACT
the beginning of a project. For direct
procurements, Departmental managers were                    An Office of Inspector General audit
not aware of or bypassed established                   found that Headquarters Program offices did
procedures. In both instances, effective and           not effectively manage the ADP support
comprehensive quality assurance processes              services contract by fully evaluating and
had not been implemented.               As a           controlling costs for Automated Office
consequence, the Department was not in a               Systems Support and Local Area Network


                                                  21
          PERFORMANCE MEASURE:                       Recommendations
                      Accepted or Implemented by Management

administration       (AOSS/LAN)           task        with the Department of the Air Force to
assignments. Although the program offices             provide technical assistance in support of
contracted for like or similar work in the            environmental compliance issues. Lockheed
AOSS/LAN task assignments, the number of              Martin Energy Systems’ (Energy Systems)
contractor Full-Time Equivalents used and             Hazardous Waste Remedial Actions Program
cost to complete the task assignments varied          (HAZWRAP) supported the Department in
significantly in comparison to the number of          fulfilling its responsibilities to the Air Force.
computer users that each task assignment                    An Office of Inspector General audit
supported. The audit disclosed that the costs         found that Energy Systems did not properly
to support computer users varied                      manage and account for costs claimed under
significantly among the program offices. For          its interagency agreements for HAZWRAP.
example, one program office spent about               Specifically, Energy Systems transferred
$780,000 to support 423 users, while                  costs among accounts to avoid overruns and
another program office spent over $1.3                to use the maximum funds authorized by
million to support 409 users. This occurred           HAZWRAP customers. By avoiding cost
because in all but one instance the                   overruns, Energy Systems hoped to receive
AOSS/LAN task assignments were not based              higher award fees from the Department. As
on detailed analysis of user requirements and         a result of its actions, Energy Systems
related costs. In addition, none of the task          mischarged one HAZWRAP customer by
assignments were benchmarked against best             $504,750.
practices from internal or external sources.                The audit report recommended that the
     The Office of Inspector General                  Oak Ridge Operations Office (1) direct
recommended the Office of Information                 Energy Systems to ensure that existing
Management, in conjunction with the                   management controls are adhered to and that
program offices, implement effective costs            adequate        management         controls    are
controls by establishing task assignments for         maintained; (2) determine the allowability of
AOSS/LAN support based on a detailed                  $504,750 in questioned costs, recover the
analysis of user requirements and related             appropriate amount from Energy Systems,
costs and benchmarking tasks against best             and refund mischarged amounts to the
internal practices and best practices in other        appropriate customers; and (3) perform a
Federal agencies and the private sector.              “for cause” review of the Work-for-Others
     Department management agreed with                Program to identify, recover, and refund
the recommendation. (CR-B-97-04)                      amounts received by Energy Systems as the
                                                      result of improper cost transfers.
  AUDIT DISCLOSES IMPROPER                                  Department management concurred
ACCOUNTING FOR COSTS CLAIMED                          with the finding and recommendations and
    UNDER DEPARTMENTAL                                agreed to take appropriate action. (ER-B-
  INTERAGENCY AGREEMENTS                              97-04)

     In 1986, the Department of Energy
entered into a work-for-others agreement


                                                 22
         PERFORMANCE MEASURE:                         Audit/Inspection
            Savings, Recoveries, and Funds Identified for Better Use

Explanation: Costs which are recovered, saved, disallowed, or identified for better use
(detailed definition appears in Section IV of this Semiannual Report). For the Office of
Audit Services, dollar amounts discussed for this performance measure are included in
the audit statistics presented in Section IV of the Semiannual Report.

   SHUTDOWN OF MOUND PLANT                       Mound Plant and transfer the function to the
   COULD SAVE $4 TO $8 MILLION                   alternate Departmental site that is most
           ANNUALLY                              economically advantageous.
                                                      In response to the audit, management
     The Office of Inspector General             said it would perform a thorough review to
performed an audit to determine if the           determine     the    most      economically
shutdown and transition of the Mound Plant       advantageous site for HS/RTG functions.
were progressing efficiently and effectively.    (IG-0408)
More specifically, the audit was to determine
if keeping a portion of the Mound Plant open           AUDIT DISCLOSES
solely to support the isotopic heat sources      APPROXIMATELY $23.8 MILLION IN
and radioisotope thermoelectric generators          CONTRACT OVERCHARGES
(HS/RTGs) was in the best interest of the
Department and the Government.                        At the request of the Department of
     The audit found that, in contrast to the    Energy’s       Western       Area      Power
goal of the Nonnuclear Consolidation Plan,       Administration (WAPA), the Office of
the Department intended to keep a portion of     Inspector General audited 17 areas of
the Mound Plant open solely to perform           possible overcharges on a power contract
work     for     other    Federal    agencies.   between Western and Basin Electric Power
Specifically, the Department has decided to      Cooperative (Basin).       The contract for
continue assembling and testing HS/RTGs at       Western’s purchase of electric power for
the plant despite the transfer or planned        Basin was entered on April 15, 1982, and
transfer of all other production operations.     was effective from January 1, 1986, through
This decision was made without adequately        October 31, 1990. During this time, Basin
considering the Department’s overall             billed WAPA approximately $197.6 million.
economic goals. As a result, the Department           The audit found that Basin overcharged
may incur $4 million to $8.5 million more        WAPA approximately $23.8 million. These
than necessary each year to continue             overcharges were made because Basin (1)
HS/RTG operations at the Mound Plant.            did not recognize or amortize as gain its
Additionally, if the HS/RTG operations           overestimate of completion and correction
remain at the Mound Plant, the Department        costs for Antelope Valley Station (AVS) unit
will spend at least $3 million to move the       2; (2) did not amortize the gain on the
operations into new facilities.                  sale/leaseback of AVS Unit 2 as an offset to
     The audit recommended that the              lease costs; (3) billed WAPA prematurely for
Director, Nuclear Energy, suspend the            lease and interest costs; (4) overcharged for
consolidation of HS/RTG activities at the        the cost of coal by including administrative


                                            23
           PERFORMANCE MEASURE:                         Audit/Inspection
              Savings, Recoveries, and Funds Identified for Better Use

and general expenses and profit, as well as            nated sites in a cost effective manner. An
incorrectly calculating discounts, royalty             Office of Inspector General audit determined
payments and imputed interest costs; (5)               that Los Alamos did not generate the
made faulty calculations of amortization               information needed to assess whether
rates for deferred costs; (6) used a shorter           specific sites were remediated cost
depreciation period for AVS common fa-                 effectively. This situation occurred because
cilities than it had used for other power              the performance criteria used to evaluate
plants; (7) retained tax benefit transfers; and        cost effectiveness were not always
(8) charged WAPA for interest and                      reasonable, measurable, and complete. As a
depreciation that had been paid by others.             result, neither Los Alamos nor the
      In addition to the $23.8 million in              Department could evaluate the cost
overcharges, the audit estimated interest              effectiveness or progress of the remediation
accrued on the overcharges through                     program or accurately budget for upcoming
December 31, 1996, to be approximately                 remediation activities.
$22.1 million, resulting in a total of $45.9                The audit also showed that Los Alamos’
million due WAPA.                                      sample validation procedures were not cost
      The audit recommended that WAPA                  effective. The Office of Inspector General
seek a refund from Basin of $23,843,592,               review determined that Los Alamos validated
plus interest accrued from January 1, 1986,            more samples than called for by Federal and
to the date such refund is received.                   New Mexico standard practices.           Los
      The WAPA Administrator concurred                 Alamos paid up to $540,000 more than
with the Office of Inspector General                   necessary to validate results.
recommendation and stated that WAPA was                     The audit recommended that the
working to reach closure on the issue of               Manager, Albuquerque Operations Office (1)
overcharges made by Basin. (IG-0409)                   require Los Alamos to track detailed cost
                                                       data; (2) incorporate a performance measure
    AUDIT FINDS MORE DATA IS                           that would evaluate how well actual costs
   NEEDED TO DETERMINE COST                            compare to planned baseline cost data; and
       EFFECTIVENESS OF                                (3) require Los Alamos to follow the
      CONTAMINATED SITE                                guidance established by the Environmental
          REMEDIATION                                  Protection Agency and the New Mexico
                                                       Environment Department.
    The Department of Energy’s Los                          Department management concurred
Alamos Environmental Restoration Program               with the recommendations and agreed to
is charged with remediating contami-                   implement substantive changes in Los
                                                       Alamos’       Environmental      Restoration
                                                       Program. (IG-0410)




                                                  24
           PERFORMANCE MEASURE:                         Audit/Inspection
              Savings, Recoveries, and Funds Identified for Better Use

ROCKY FLATS NEEDS TO IMPROVE                               Department management generally
ITS USE OF PERFORMANCE-BASED                           concurred with the recommendations. (IG-
          CONTRACTS                                    0411)

     The Department of Energy uses                         PROPOSED ACQUISITION OF
performance-based contracts and cost                    ADDITIONAL LAND COULD LEAD
reduction incentive programs to motivate                TO APPROXIMATELY $655,000 TO
contractors to reduce costs by employing                 $2.2 MILLION IN UNNECESSARY
innovative practices; and to encourage and                          COSTS
reward        superior,        results-oriented
performance through a clearly defined                       The U.S. Department of Energy
performance measure incentive program. An              obtained an appraisal and developed a cost
Office of Inspector General audit found that           estimate to acquire 78 to 100 acres of
the Rocky Flats Field Office approved three            privately held land adjoining the Fernald
Kaiser-Hill Company cost reduction                     Envi-
proposals that did not meet the Department’s           ronmental Project (FEMP) as a buffer zone
basic criteria on cost reduction proposals.            for its waste disposal facility. The Office of
These proposals, valued at $16 million, were           Inspector General conducted an audit to
not innovative and generally did not return            determine whether the proposed purchase of
savings to the Department. Rocky Flats,                land was essential to support the site’s
however, awarded Kaiser-Hill almost $5.6               mission.
million for its share of those proposals.                   Federal and Department Property
Because Kaiser-Hill did not always return              Management regulations state that executive
savings as stipulated in the Department’s              agencies may only acquire and retain land
guidance, Rocky Flats used program funding             that is necessary to support mission related
to pay Kaiser-Hill for the proposals.                  activities.    The Department proposed,
     In addition, the audit disclosed that the         however, to acquire 78 to 100 acres of land
Kaiser-Hill contract included performance              adjoining the FEMP even though current
measures that were not always supported by             land holdings met the minimum mission
objective data, were not structured to                 requirements. The Department obtained an
encourage and reward superior performance,             appraisal and developed a cost estimate to
and were often focused on a process rather             acquire the additional land without
than the results of that process. For meeting          confirming that a valid need for the land
such performance measures, Rocky Flats                 existed. Acquisition of such land would
paid about $6.9 million in incentive fees.             unnecessarily     cost     the     Department
     The audit report recommended that the             approximately $655,000 to $2.2 million.
Office of Procurement and Assistance                   Additionally, the Department could incur
Management and the Rocky Flats Field                   unnecessary maintenance and security costs
Office take several corrective actions.                to maintain the land after acquisition.
                                                            The Office of Inspector General
                                                       recommended that Department management

                                                  25
           PERFORMANCE MEASURE:                         Audit/Inspection
              Savings, Recoveries, and Funds Identified for Better Use

dismiss the proposal to acquire the additional          Departmental policies.         This occurred
land.                                                   because these contractors did not implement
     Department management agreed with                  and contracting officers did not properly
the recommendation, stating that the                    enforce       contract    and      Department
acquisition could not be justified at this time.        requirements, and contracting officers did
Management did not, however, agree with                 not properly monitor salary expenditures.
the finding that the Department obtained an             As a result, both contractors did not fully
appraisal and developed a cost estimate                 comply with the Secretary’s pay freeze in
without confirming that a valid need for the            1994. This resulted in unallowable costs of
land existed. Management stated that the                about $1.1 million at Livermore and about
appraisal and costs estimate were principal             $267,000 at Berkeley.             Also, both
and necessary to determining whether a need             contractors incurred questionable costs in
for the land existed. (ER-B-97-03)                      1995, about $2.6 million at Livermore and
                                                        about $31,000 at Berkeley, by exceeding
AUDIT DISCLOSES UNALLOWABLE                             their salary increase budgets.
CONTRACTOR SALARY INCREASE                                   The Office of Inspector General
            COSTS                                       recommended that Department management
                                                        require (1) contracting officers and
     The Department of Energy Acquisition               contractors to define which employees will
Regulation requires that contractor salary              be included in the salary increase fund, (2)
actions be within specific limitations,                 contractors to implement contract terms, and
supportable, and approved prior to                      (3) contracting officers to enforce contract
incurrence of costs.      In addition, the              terms and properly monitor salary increase
Secretary of Energy imposed a 1-year salary             funds. Furthermore, the audit recommended
freeze on the merit portion of management               the recoupment of unallowable costs of
and operating contractor employee salaries              about $1.1 million at Livermore and about
for each contractor’s Fiscal Year 1994                  $267, 000 at Berkeley in Fiscal Year 1994
compensation year.                                      and that a determination be made on the $3.4
     A review of eight major contractors                million of questionable costs for Fiscal Year
showed that six complied with the                       1995.
Department’s policies on salary increases.                   Although Department management
The other two, Lawrence Livermore                       agreed      with     two    of    the    three
National Laboratory and Lawrence Berkeley               recommendations, it did not agree with the
National Laboratory, gave salary increases              amount of unallowable costs stated in the
that were not always in accordance with                 report or that there were any unallowable
                                                        costs for 1995. (CR-B-97-02)




                                                   26
          PERFORMANCE MEASURE:                         Audit/Inspection
             Savings, Recoveries, and Funds Identified for Better Use

    CONTRACTORS PAID ABOUT                          payment data with the training records,
     $130,000 IN QUESTIONABLE                       verify the date with the employee, and make
     EMPLOYEE EDUCATIONAL                           appropriate adjustments to the records;
    ASSISTANCE COSTS DUE TO                         recover all erroneous payments; document
      INADEQUATE INTERNAL                           the administrative practices and procedures
             CONTROLS                               used to manage employee assistance; and
                                                    reconcile the various training records used to
      A change in mission, coupled with the         track educational assistance on a regular
Department of Energy’s (Department)                 basis.
downsizing and the consolidation of three                Department management concurred
management and operating contractors,               with the findings and recommendations.
required    the     Department’s     Nevada         (WR-B-97-05)
Operations (Nevada) to reduce its
management and operating contractor                  SUBSTANTIAL SAVINGS COULD BE
staffing.   Under work force reductions,                   REALIZED THROUGH
Federal, Department, and Nevada policies              IMPLEMENTATION OF COST AND
authorize the Department and its contractors               BENEFIT ANALYSES
to provide educational assistance to
employees impacted by work force                         The Department of Energy should
reductions.                                         renovate and construct only facilities that
      An Office of Inspector General audit          satisfy mission needs at the least cost.
found that management and operating                      An Office of Inspector General audit
contractor training records on displaced            found that Lawrence Livermore National
employees were not accurate and that, as a          Laboratory (Livermore) was pursuing three
result, contractors incurred questionable           construction projects, valued at $78 million,
costs. These costs consisted of contractors         even though it had not demonstrated that it
paying for training classes that employees          had selected the best alternatives for meeting
had not requested, duplicate payments being         the Department’s needs while minimizing
made to vendors, overpaying vendors, and            cost. Livermore was able to pursue these
paying for courses that employees did not           projects because the Department’s Oakland
complete. Additionally, the audit found that        Operations Office (Oakland) did not ensure
contractors made record keeping errors              that the laboratory had performed cost and
including posting transactions to the wrong         benefit analyses of all alternatives. Further,
employee accounts and not posting refunds           Oakland did not establish benchmarks to
properly.      As a result, Department              assess the reasonableness of the total costs of
contractors erroneously paid at least               designing, constructing, and managing these
$130,000.                                           projects. As a result, it was likely that the
      The    audit    recommended       that        Department was spending more than
Department management instruct the                  necessary on renovation and new
contractors to review all terminated                construction projects at Livermore.
employee training files to reconcile the                 Although the projects met mission

                                               27
           PERFORMANCE MEASURE:                         Audit/Inspection
              Savings, Recoveries, and Funds Identified for Better Use

needs, the Office of Inspector General                for desktop computers because its standard
recommended that the Manager, Oakland                 desktop computer configuration was
(1) require Livermore to perform analyses of          excessive.     Additionally, some desktop
expected costs and benefits for alternatives;         computers that Lockheed Martin acquired
(2) evaluate the adequacy of Livermore’s              exceeded its established standard and were
cost and benefit analyses of alternatives; (3)        not fully justified according to established
establish benchmarks based on industry and            policies and procedures. Further, the audit
other government agency cost data to assess           found that Lockheed Martin purchased
the reasonableness of Livermore’s total               desktop computers from a local vendor
design,      construction,   and       project        rather than a less costly alternative source
management costs; and (4) select the                  and did not pursue the possibly more
alternative that meets established needs at           economical option of leasing computers.
the least cost to the Government.                          The audit report recommended that the
     Oakland         agreed     with       the        Idaho Operations Office reduce computer
recommendations and will implement them               acquisition costs by having Lockheed Martin
starting with the Fiscal Year 1999 project            establish and adhere to a more conservative
submission and validation. (WR-B-97-06)               standard configuration for computers, use
                                                      alternative sources of supply, and reevaluate
    REDUCTION IN COMPUTER                             the feasibility of leasing rather than
   ACQUISITION COSTS COULD                            continuing to purchase computers.         By
  RESULT IN ANNUAL SAVINGS OF                         implementing these recommendations the
         ABOUT $750,000                               Office of Inspector General estimates that
                                                      the Department could save approximately
    An Office of Inspector General audit              $750,000 annually.
showed that Lockheed Martin Idaho Tech-                    Management concurred with the
nologies Company (Lockheed Martin) did                recommendations. (WR-B-97-07)
not always pay the lowest possible prices




                                                 28
     PERFORMANCE MEASURE:                       Legislative and Regulatory
      Compliance Related To Office of Inspector General Recommendations

Explanation: Based on Office of Inspector General recommendations, Department adoption
of principles and guidance contained in statutes, executive orders, and U.S. Code of Federal
Regulations.

 MANAGEMENT AND OPERATING                             example, a December 1990 OSHA review
 CONTRACTORS UNDERREPORT                              determined that reporting problems at
 OCCUPATIONAL SAFETY WORK-                            about 50 percent of the Department’s
    RELATED INJURIES AND                              contract facilities covered in its review had
         ILLNESSES                                    underreported employee lost workdays and
                                                      had improperly applied work restrictions.
      An Office of Inspector General audit            Also, a 1994 Office of Inspector General
disclosed that management and operating               audit disclosed that the Department had
contractors were not reporting all                    overpaid award fees to a contractor
significant work-related injuries or illnesses        because it relied on contractor data that
as required by Departmental and                       significantly understated the extent of
Occupational       Safety      and      Health        illnesses and injuries.
Administration       (OSHA)        guidelines.              The audit report recommended that
Through an analysis of selected medical               the Savannah River and Oakland
and workers compensation data for                     Operations Offices ensure that their
contractors at the Savannah River and                 contractors take action to correct the
Lawrence Livermore sites, the audit                   occupational        injury    and       illness
identified 111 of 237 cases during Calendar           recordkeeping problems identified in the
Year 1995 that were improperly                        report. The report also recommended that
categorized as minor. These cases should              the Department examine all contractor
have been reported to the Department as               programs and issue additional guidance
significant injuries or illnesses. The audit          delineating OSHA recording requirements.
indicated that this information was                         Management generally concurred with
underreported        because       contractor         the finding and recommendations noting
personnel did not obtain sufficient medical,          that corrective actions have been initiated
restricted work activity, or lost worktime            to improve the occupational injury and
information relating to the injuries or               illness recordkeeping and reporting
illnesses, or they did not properly interpret         process. (IG-0404)
OSHA reporting requirements.                In
addition, the Department did not have a                   INSPECTION IDENTIFIES
systematic process for periodically                    DEFICIENCIES IN CONTRACTOR
validating the completeness and accuracy                 PROCUREMENT PROCESS
of contractor generated injury and illness
data.                                                      During this reporting period, the
      The failure to properly report injuries         Office of Inspector General received an
or illnesses is a recurring problem at                allegation regarding possible kickbacks in a
Departmental contract facilities.         For         proposed Westinghouse Savannah River


                                                 29
     PERFORMANCE MEASURE:                       Legislative and Regulatory
      Compliance Related To Office of Inspector General Recommendations

Company (Westinghouse) subcontract with                    The Office of Inspector General
the Computer Sciences Corporation (CSC)               review found that Westinghouse (1) did
for outsourcing information technology.               not use effective competitive techniques
While an investigation did not substantiate           regarding both the solicitation and
the allegation, the Office of Inspector               evaluation of bids for this procurement; (2)
General found that Westinghouse’s                     failed     to   maintain     adequate    file
selection of CSC for this proposed                    documentation appropriate to the value of
subcontract     had     possibly    involved          the proposed procurement; and, (3) had
significant deviations from procurement               not ensured that the pricing of the
rules and regulations. A multi-disciplinary           proposed subcontract was fair and
review by the Office of Inspector General             reasonable. In addition, the Office of
was      conducted     to    determine      if        Inspector General learned of several
Westinghouse          used       appropriate          activities that could provide CSC with an
procurement rules and regulations in                  unfair competitive advantage in future
selecting     CSC      as    a     proposed           procurements of information technology
subcontractor.                                        services at Savannah River. One such
     In December 1996, the Department’s               activity was that CSC had up to 30
Savannah      River     Operations    Office          employees at Savannah River during the
disapproved Westinghouse’s proposed                   proposed       subcontract’s     negotiation
subcontract with CSC because it disagreed             process.
with Westinghouse’s legal analysis that                    The Office of Inspector General report
concluded that the proposed CSC                       recommended           that       Department
procurement met the requirements of the               management direct Westinghouse to (1)
Department of Energy Acquisition                      conduct any future procurements of
Regulation.     Although Savannah River               outsourcing      information     technology
officials disapproved the subcontract, the            support services in accordance with the
Office of Inspector General completed its             requirements of Westinghouse’s approved
review and issued a report to address some            procurement procedures; and (2) ensure
management        and     possible     future         that any potential unfair competitive
procurement issues. Westinghouse and                  advantage provided to CSC in competing
Savannah River officials stated that the              for     future    information    technology
Department of Energy Acquisition                      procurements at Savannah River is
Regulation should be the basis for                    considered and mitigated, as appropriate.
determining the propriety of the CSC                       Department management concurred
procurement process.       That regulation            with both recommendations. (IG-0406)
provides, in part, that a contractor’s
procurement system should ensure the use
of effective competitive techniques,
adequate documentation, and fair and
reasonable pricing.



                                                 30
     PERFORMANCE MEASURE:                      Legislative and Regulatory
     Compliance Related To Office of Inspector General Recommendations

THE DEPARTMENT COULD MAKE                                The Administrator, Energy Information
 GREATER USE OF FIXED PRICE                          Administration, agreed with the finding and
CONTRACTS TO OBTAIN SUPPORT                          recommendation       and     stated     that
         SERVICES                                    management is committed to establishing
                                                     guidelines and policies for best value
    The Office of Inspector General                  contracting. Actions are underway to
performed a followup audit on actions                identify tasks where the work to be
taken in response to a July 1990 audit               performed can be estimated with a
report on “Procurement of Support                    reasonable degree of accuracy, and Energy
Services for the Energy Information                  Information Administration planned to
Administration” (Energy          Information         award a fixed-price task order in August
Administration) (CR-OC-90-2).            The         1997. (CR-B-97-03)
followup audit found that Procurement and
the Energy Information Administration had             FORMER OPERATIONS OFFICE
made little progress in developing the               EMPLOYEE VIOLATES FREQUENT
defined statements of work necessary for                FLYER PROGRAM POLICY
fixed-priced contracting. The 1990 audit
disclosed that over 50 percent of the work                The Office of Inspector General
under six of the cost-reimbursement                  received an allegation concerning possible
contracts examined was recurring and                 frequent flyer abuse by a former operations
could have been estimated with a                     office employee. An Office of Inspector
reasonable degree of accuracy, making the            General inspection found that the former
work suitable for fixed-price contracting.           employee made personal use of frequent
None of the 14 Energy Information                    flyer miles obtained from official
Administration contracts active in 1996,             Government travel. Specifically, it was
valued at $202 million, were fixed-price             determined that the former employee used
contracts.                                           120,000 frequent flyer miles earned from
    The audit recommended that the                   Government travel for six personal trips for
Energy Information Administration take               himself and members of his family in
advantage of the recently enacted Federal            violation of Departmental Order 1500.2A,
Acquisition Streamlining Act. The Act                Travel Policy and Procedures. The Order
allows task-by-task contracting and should           prohibits Department employees from
facilitate the use of fixed-price contracting        making personal use of frequent flyer miles
when        the     Energy       Information         obtained from official Government travel.
Administration segregates out those tasks            The Office of Inspector General
that can be estimated with a reasonable              recommended          that      Department
degree of accuracy.                                  management take action to collect the full
                                                     value of the tickets for the six personal
                                                     trips.




                                                31
    PERFORMANCE MEASURE:                       Legislative and Regulatory
     Compliance Related To Office of Inspector General Recommendations

    Department management concurred                      The investigation confirmed the
with the recommendation and the former              allegations and the U.S. Attorney’s Office
employee reimbursed the Department                  for the Eastern District of Tennessee
$2,730. (S95IS007)                                  recommended administrative action in lieu
                                                    of prosecution.          The Office of
    OAK RIDGE OPERATIONS                            Investigations coordinated this matter with
    CONTRACTOR VIOLATES                             the Environmental Protection Agency’s
 RESOURCE CONSERVATION AND                          (EPA) Compliance Division. The EPA
    RECOVERY ACT PERMIT                             Compliance      Division    assessed    the
       REQUIREMENTS                                 contractor with a $22,500 administrative
                                                    penalty as a result of the violation.
      The Office of Inspector General’s             (I95OR017)
Office of Investigations received a referral
concerning possible violations of the
Resource Conservation and Recovery Act
(RCRA).          The allegation involved
falsification of daily inspection reports by
contractor personnel at the Department’s
Oak Ridge Y-12 facility. The RCRA
permit required daily inspections of a
particular tank farm at the Y-12 facility.




                                               32
        PERFORMANCE MEASURE:                                 Complaints Resolved


Explanation: Complaints and allegations resolved as a result of Office of Inspector General
work. Complaints and allegations are considered resolved when a case is closed.
Prosecutions and exonerations are included in this measurement. Complaints and
allegations which are referred to management without requiring a management response and
referrals to other agencies do not count as resolutions and will not be included in this
statistic.
                                                      EMPLOYEE USES GOVERNMENT
  FALSE CLAIMS FOR CRUDE OIL                              TIME AND EQUIPMENT TO
   REFUNDS ARE SUBMITTED TO                           CONDUCT PERSONAL BUSINESS
           THE DEPARTMENT
                                                         The Department’s Rocky Flats Field
     The Office of Inspector General                Office reported to the Office of Inspector
received     an     allegation  from     the        General that a Department employee was
Department’s Office of Hearings and                 allegedly using Government computer and
Appeals that an individual had submitted            telecommunications equipment to conduct
22 false crude oil refund applications. The         personal business during work hours. In
Office of Inspector General conducted a             addition, it was alleged that the employee
joint investigation with the Internal               had loaded unauthorized personal software
Revenue Service, the U.S. Probation                 on his Government computer.            The
Service, and the State Department which             investigation determined that the employee
confirmed that the individual submitted 22          acquired two unauthorized telephone lines,
false refund applications totaling over $1          connected an unauthorized fax/modem to
million and received $173,208 in refunds.           his Government computer, accessed the
     The individual was indicted by a               internet using the unauthorized modem,
Federal grand jury for mail fraud; wire             breached the site computer firewall system
fraud; false claims; use of a false social          (potentially exposing the site to possible
security number; false statement in a               intrusion), downloaded files from the
passport application; scheme to falsify,            internet, loaded unauthorized personal
conceal and cover-up; obstruction of                software (America Online) on his
justice; and money laundering. As a result          Government computer, created and used
of a guilty plea, he was sentenced to 41            personal files on his Government
months imprisonment. Additionally, the              computer, and used a Government fax
individual and 22 associated companies              machine for personal business.
were debarred from receiving Federal                     As a result of an Office of Inspector
financial      assistance,     non-financial        General      Administrative    Report    to
assistance, and benefits pursuant to any            Management, the Department took
Federal programs or activities for a period         corrective action. The employee received
of 3 years. (I93DN002)                              a 2-day suspension, was removed as a
                                                    property custodian at the site, and was
                                                    counseled regarding the proper use of
                                                    Government property. (I97DN005)


                                              33
        PERFORMANCE MEASURE:                                 Complaints Resolved


                                                    duty hours and used Government
   DEPARTMENT EMPLOYEE                              equipment in doing so. An Office of
VIOLATES DEPARTMENT POLICY                          Inspector        General      investigation
REGARDING COMPUTER USAGE                            substantiated the allegation.
                                                         As a result of the investigation, the
     The Department’s Savannah River               Office of Inspector General issued an
Operations Office provided information to          Administrative Report to Management to
the Office of Inspector General that a             the Manager of the Nevada Operations
Department       employee      misused    a        recommending that appropriate action be
Government computer to access the                  taken to ensure that the manager would not
Internet for non-government activities.            allow his personally owned business to
The investigation determined that the              interfere      with      his    Department
employee accessed sexually oriented web            responsibilities.
sites and placed a sexually explicit                     The Nevada Operations Office
advertisement on the Internet.                      Manager issued a Letter of Reprimand to
     The case was referred to the U.S.              the Department manager; directed the
Attorney’s Office for the District of South         Department manager to review applicable
Carolina where it was declined for                  Departmental regulations; directed the
prosecution in lieu of administrative               Department Manager to reimburse the
remedies.                                           Department for personal long distance
     As a result of an Office of Inspector          calls; and imposed an increased level of
General      Administrative    Report    to         supervision for 1 year. (I96LL014)
Management, the Department took
corrective action. The employee was                CONTRACTOR EMPLOYEE
placed on a 20-day suspension without pay          REPRISAL COMPLAINTS
and required to receive counseling under
the Employee Assistance Program. In                     The Office of Inspections conducted
addition, the employee’s system access             numerous inquiries into reprisal allegations
authorization was suspended throughout             and issued Reports of Inquiry, most
the disciplinary period. (I97SR007)                pursuant to 10 C.F.R. Part 708. Copies of
                                                   findings were provided to Department
 MANAGER USES GOVERNMENT                           management, involved contractors, and
  TIME AND EQUIPMENT TO                            complainants.       Complaints concerned
 CONDUCT PRIVATELY OWNED                           contractor employees allegedly making
         BUSINESS                                  protected disclosures regarding fraud,
                                                   waste, abuse, mismanagement, or health
     The Office of Inspector General               and safety issues that contribute to adverse
received an anonymous letter which                 actions being taken against them. The
alleged that a Department manager at the           following are examples of the findings and
Nevada Operations Office conducted his             recommendations of the reprisal inquiries:
privately owned business during official


                                              34
        PERFORMANCE MEASURE:                                Complaints Resolved


• A complaint was received by a                       708, and that the complainant’s
  contractor employee who disclosed                   employment was terminated for
  that performance test logs of a                     reasons unrelated to the alleged
  radiation     measuring       instrument            disclosure. (S96IS049)
  indicated that he had tested the
  performance of such instrument on a              • A      complainant     made      various
  day when he was on leave. The                      disclosures to management officials and
  complainant alleged that, after making             the Office of Inspector General
  such disclosure, various supervisors               concerning a supervisor.            The
  retaliated against him over a period of            complainant alleged that the supervisor
  almost 5 years which led to the                    (1) gave preferential treatment to
  termination of his employment. The                 certain young female employees; (2)
  contractor claimed it fired the                    subjected     the     complainant     to
  employee because the employee                      embarrassing comments; and (3)
  conducted personal business during                 excluded the complainant from
  work hours. The Office of Inspector                meetings. The complainant alleged that
  General inquiry concluded that the                 the supervisor retaliated as a result of
  complainant’s        disclosure      was           the disclosures by having the
  “protected,” pursuant to Part 708,                 complainant’s      duties    reassigned,
  however, the evidence did not support              allowing other employees to interfere
  a finding that the complainant’s                   with the complainant’s work, and
  protected disclosure contributed to his            coercing     the    complainant     into
  employment termination. (S96IS024)                 accepting retirement. The Office of
                                                     Inspector General’s inquiry concluded
• A complainant alleged that his                     based on the available evidence that it
  disclosure      concerning      excessive          did not appear that the actions taken
  mandatory overtime imposed upon                    were retaliatory, or that the employee
  security personnel contributed to his              was coerced into accepting retirement.
  employment        termination.       The           (S96IS036)
  contractor       claimed      that    the
  complainant’s        employment      was         • A quality assurance and safety manager
  terminated as a result of an incident in           made health and safety disclosures and
  which the complainant allegedly                    attempted to suspend construction
  sprayed another employee with “pepper              work pending a safety determination.
  spray” as well as another incident                 The project manager strongly objected
  where the complainant displayed                    to the complainant’s attempt to
  aggressive behavior. The Office of                 suspend work and overruled the
  Inspector General inquiry concluded                complainant’s proposal. Incidentally,
  that the available evidence did not                the project manager was the son of the
  indicate that the complainant had made             contractor president. The contractor
  a protected disclosure, pursuant to Part           president terminated the complainant’s


                                              35
    PERFORMANCE MEASURE:                        Complaints Resolved


employment, citing the complainant’s
performance in protecting worker
safety.    The Office of Inspector
General inquiry concluded based on the
available     evidence      that     the
complainant’s protected activity in
attempting to suspend work and to
evaluate a safety issue contributed to
his employment termination.         The
Office     of     Inspector      General
recommended an award of back pay
and benefits for the duration of the
project period, including reasonable
costs and expenses. (S96IS067)




                                           36
PERFORMANCE MEASURE:                             Investigation Recoveries/Fines and
                             Funds Identified for Better Use


Explanation: Applies to investigations and allegation-based inspections only, and consists
of recoveries and fines which were collected as a result of management actions based on
Office of Inspector General work, as well as funds identified in reports for better use.
Statistics on investigative recoveries/fines are collected separately and are included in
Section IV of the Semiannual Report.

   CONTRACTOR EMPLOYEE                              the scrap.
 PROFITS FROM SALE OF STOLEN                             An Office of Inspector General
   GOVERNMENT PROPERTY                              Administrative Report to Management was
                                                    issued to the Manager, Pinellas Area
     Department officials from the Pinellas         Office, requesting the Department recover
Area Office informed the Office of                  the missing $53,298 from the contractor.
Inspector General that a contractor                 In response to the report, the Department
employee stole proceeds from scrap metal            recovered $31,311 which represented
sales at the Pinellas Plant.             The        funds unaccounted for while the current
investigation determined that the Pinellas          contractor     operated     the   facility.
Plant could not account for $53,298 in              (I95SR013)
cash proceeds from the sale of scrap
metals.                                             DEPARTMENT AND CONTRACTOR
     The investigation revealed that for at              EMPLOYEES STEAL
least 10 years the Pinellas Plant did not            GOVERNMENT EQUIPMENT AND
adequately control, monitor, and record                       FUNDS
the sale of scrap metals. Under an informal
system, a contractor employee loaded and                 The Office of Inspector General
transported scrap metal to a local scrap            completed three investigations that
dealer, sold the metal for cash, then turned        substantiated the theft of Department of
the cash over to a supervisor.           The        Energy property and funds.              One
supervisor turned the cash over to a                investigation determined that a contractor
contractor cashier. The contractor had not          employee at the Federal Energy
implemented a system to record the                  Technology       Center--Pittsburgh    stole
number of scrap sales made, the types of            computer equipment valued at $3,300 and
metals sold, or the dates and amounts of            resold it for personal profit. The Office of
cash proceeds. The contractor’s records             Inspector General was able to recover the
showed that $21,838 had been deposited              equipment and the subject was charged
with its cashier for scrap metal sales.             with receiving stolen property. Thereafter,
However, records from the scrap metal               the subject entered a pre-trial diversion
dealer indicated that it had purchased              program.
$75,135 worth of scrap metal from the                    A second investigation disclosed that
Pinellas Plant. The contractor terminated           several      Department        of    Energy
the employment of the employee who sold             Headquarters       employees      improperly

                                               37
PERFORMANCE MEASURE:                             Investigation Recoveries/Fines and
                             Funds Identified for Better Use


obtained Department funds by submitting             reported that the grantee reimbursed the
fraudulent travel authorizations for ghost          Department      $75,280.23    for    the
employees and claiming invalid overtime.            subgrantee’s      unsupported      costs.
Three of the employees were convicted for           (I95AL035)
theft of Government property.           The
investigation resulted in the recovery of               TWO FORMER COMMUNITY
$28,000 in fines and restitution.                      ACTION AGENCY DIRECTORS
     A third investigation disclosed that                FRAUDULENTLY OBTAIN
another      Department        of     Energy               FEDERALLY FUNDED
Headquarters employee submitted false                    WEATHERIZATION FUNDS
time and attendance claims in the amount
of $12,800. The investigation revealed                   A joint investigation between the
that the employee submitted inflated                Office of Inspector General and the Federal
overtime claims and failed to fully report          Bureau of Investigation confirmed
annual leave hours taken. The subject               allegations that a community action agency
pleaded guilty to a charge of theft of              in Lansing, Michigan, had fraudulently
Government property.              (I97PT003,        obtained Federal funds, including the
I95HQ028, I94HQ028)                                 Department’s weatherization funds. The
                                                    investigation focused on allegations of
  A DEPARTMENT OF ENERGY                            bribery,       kickbacks,    theft,    and
WEATHERIZATION SUBGRANTEE                           embezzlement from a federally funded
SUBMITS UNSUPPORTED CLAIMS                          program. The investigation led to criminal
                                                    indictments against two former directors of
     The Office of Inspector General                the agency. One of the former directors
received information from the Federal               pleaded guilty, was sentenced to 30
Bureau of Investigation that a U.S.                 months incarceration, and fined $18,000.
Department of Energy Weatherization                 The      other     former   director   was
Assistance Program subgrantee may have              apprehended as a fugitive in November
defrauded the Government.                           1996. He was sentenced to 10 years
     A joint task force investigation               imprisonment and ordered to pay $150,000
determined that the subgrantee did not              in restitution. (I90CH007)
have adequate documentation to support
many of the homes it claimed to have                    DEPARTMENT EMPLOYEE
weatherized. This resulted in the primary             ILLEGALLY OBTAINS PENSION
grantee overpaying the subgrantee for                    AND SALARY BENEFITS
homes that were never weatherized.
       An Administrative Report to                       The Office of Inspector General
 Management recommended the recovery                received an allegation that a Department of
 of funds for unsupported weatherization            Energy     employee      submitted    false
 projects.    The Contracting Officer               Government employment documents to

                                               38
PERFORMANCE MEASURE:                            Investigation Recoveries/Fines and
                            Funds Identified for Better Use


obtain pension and salary benefits to which        The      employee        reimbursed    the
she was not                                        subcontractor      $44,542      and    the
entitled. The Office of Inspector General          subcontractor reimbursed the Department
conducted a joint investigation with the           $49,062 (cost of the fraudulent wages plus
Office of Personnel Management’s Office            administrative costs). (I95OR004)
of Inspector General. The investigation
resulted in the employee pleading guilty to          SUBCONTRACTOR EMPLOYEE
one count of Theft of Government                    SUBMITS FRAUDULENT TRAVEL
Property. The employee was sentenced to                      VOUCHERS
6 months home detention with electronic
monitoring, and 1 year probation. The                   The Office of Inspector General
employee was also ordered to pay                   received allegations from an Albuquerque
restitution of $100,483 and was levied a           Operations Office contractor alleging that a
fine of $2,944. (I96RL015)                         Sandia National Laboratories, New Mexico
                                                   (SNL), employee submitted fraudulent
    OAK RIDGE OPERATIONS                           travel claims.
 SUBCONTRACTOR EMPLOYEE IS                              The investigation determined that the
  CONVICTED FOR SUBMITTING                         former SNL employee submitted and
      FALSE TIME CARDS                             received reimbursement for 59 travel
                                                   vouchers for trips that never occurred.
     The Office of Inspector General               The fraudulent travel vouchers totaled
received an allegation from an Oak Ridge           $10,433.
Operations Office contractor that a                     The investigation also disclosed that
subcontractor employee had obtained                the value of the former employee’s time
wages for days he did not work. The                traveling to fictitious destinations totaled
investigation    determined     that  the          $10,295.
subcontractor employee had submitted                    As a result of the investigation, the
fraudulent time cards from January 1993            SNL      employee’s     employment      was
through     November      1994.      The           terminated and an investigative report was
investigation was referred to the U.S.             provided to the U.S. Attorney’s Office,
Attorney’s Office for the Eastern District         District of New Mexico. The employee
of Tennessee.         The subcontractor            signed a negotiated Pretrial Diversion
employee pleaded guilty to one count of            which required her to pay restitution of
false claims. He was sentenced to 4                $20,728. (I96AL019)
months imprisonment and 4 months home
confinement, and was assessed a $50 fine.




                                              39
                                      SECTION III




                           REPORTS ISSUED




        The 59 Office of Inspector General reports issued during this semiannual reporting
period are listed in three categories: operational and financial audit reports, and inspection
public reports. Significant financial results associated with each report are also presented
when applicable.
                          REPORTS ISSUED



                    OPERATIONAL AUDIT REPORTS

IG-0402      Audit of the Management of the Department of Energy’s Leased
             Administrative Facilities, April 1, 1997
             Savings: $112,000,000

IG-0403      Audit of the Use of Intra-Departmental Requisition, May 2, 1997

IG-0404      Audit of Department of Energy Contractor Occupational Injury and Illness
             Reporting Practices, May 7, 1997

IG-0405      Audit of the Savannah River Site’s Quality Control Program for
             Groundwater Sampling, May 20, 1997
             Savings: $2,250,000

IG-0407      Audit of the Department of Energy’s Scientific and Technical Information
             Process, June 17, 1997

IG-0408      Audit of Shutdown and Transition of the Mound Plant, June 24, 1997
             Savings: $23,000,000

IG-0409      Audit of the Western Area Power Administration’s Contract With Basin
             Electric Power Cooperative, June 25, 1997
             Questioned Costs: $45,917,003

IG-0410      Audit of Environmental Restoration at the Los Alamos National
             Laboratory, July 15, 1997
             Savings: $2,700,000

IG-0411      Audit of the Contractor Incentive Programs at the Rocky Flats
             Environmental Technology Site, August 13, 1997
             Questioned Costs: $12,500,000

CR-B-97-02 Audit of Department of Energy’s Contractor Salary Increase Fund,
           April 4, 1997
           Questioned Costs: $3,431,000       Savings: $1,367,000

CR-B-97-03 Followup Audit on the Procurement of Support Services for the Energy
           Information Administration, May 16, 1997
                           REPORTS ISSUED


CR-B-97-04 Audit of Controls Over the ADP Support Services Contract, August 25,
           1997
           Savings: $6,000,000

CR-L-97-05    Audit of the Federal Energy Regulatory Commission’s Annual Charges,
              May 9, 1997

CR-L-97-06    Survey of the Department’s Headquarters Telephone Lines and Related
              Equipment, August 20, 1997

ER-B-97-03    Audit of Proposal to Acquire Land at the Fernald Environmental
              Management Project, June 5, 1997
              Savings: $1,000,000

ER-B-97-04    Audit of Selected Hazardous Waste Remedial Actions Program Costs,
              August 11,1997
              Questioned Costs: $504,750

WR-B-97-05 Audit of Work Force Restructuring Under Section 3161 of the National
           Defense Authorization Act, May 6, 1997
           Questioned Costs: $130,000

WR-B-97-06 Audit of Renovation and New Construction Projects at Lawrence
           Livermore National Laboratory, June 9, 1997

WR-B-97-07 Audit of Desktop Computer Acquisitions at the Idaho National
           Engineering and Environmental Laboratory, August 25, 1997
           Savings: $750,000


                       FINANCIAL AUDIT REPORTS


AP-FS-97-01   Audit of the Department’s Integrated Payroll/Personnel System
              May 7, 1997

AP-FS-97-02   Audit of Departmental Integrated Standardized Core Accounting System
              (DISCAS) Operations at Selected Field Sites, June 6, 1997
                           REPORTS ISSUED

CR-FS-97-02   Management Report Audit of the Department of Energy’s Consolidated
              Financial Statements for Fiscal Year 1996, May 1, 1997

ER-FS-97-01 Report on Matters Identified at the Chicago Operations Office
            During the Audit of the Department’s Consolidated Fiscal Year
            1996 Financial Statements, April 4, 1997

ER-FS-97-02 Report on Matters Identified at the Strategic Petroleum Reserve
            During the Audit of the Department’s Consolidated Fiscal Year
            1996 Financial Statements, April 4, 1997

ER-FS-97-03 Report on Matters Identified at the Oak Ridge Operations Office
            During the Audit of the Department’s Consolidated Fiscal Year
            1996 Financial Statements, April 29, 1997

ER-FS-97-04 Report on Matters Identified at the Savannah River Operations Office
            During the Audit of the Department’s Consolidated Fiscal Year 1996
            Financial Statements, May 30, 1997

ER-V-97-04 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           DynMcDermott Petroleum Operations Company Under Department
           of Energy Contract No. DE-AC96-93PO18000, April 21, 1997

ER-V-97-05 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Lockheed Martin Energy Systems, Inc., and Lockheed Martin Energy
           Research Corporation Under Department of Energy Contract Nos.
           DE-AC05-84OR21400 and DE-AC05-96OR22464, May 9, 1997

ER-V-97-06 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Argonne National Laboratory Under Department of Energy Contract
           No. W-31-109-ENG-38 , June 5, 1997
           Questioned Costs: $159,121

WR-FC-97-05 Western Area Power Administration’s Boulder Canyon Power
              System FY1996 Financial Statement Audit, April 18, 1997
                           REPORTS ISSUED

WR-FC-97-06 Report on U.S. Department of Energy Naval Petroleum Reserve
              Number 1, Quarterly Financial Statements, December 31, 1996
              and 1995, April 25,1997

WR-FC-97-07 Western Area Power Administration’s Parker-Davis Power System
              FY 1996 Financial Statement Audit, April 28, 1997

WR-FC-97-08 Report on U.S. Department of Energy Naval Petroleum Reserve
              Number 1, Quarterly Financial Statements, March 31, 1997 and 1996,
              May 7, 1997

WR-FC-97-09 Report on U.S. Department of Energy Naval Petroleum Reserve
              Number 1, Quarterly Financial Statements, June 30, 1997 and 1996,
              August 12, 1997

WR-FS-97-02 Report on Matters Identified at the Idaho Operations Office
              During the Audit of the Department’s Consolidated Fiscal Year
              1996 Financial Statements, April 18, 1997

WR-FS-97-03 Report on Matters Identified at the Rocky Flats Field Office
              During the Audit of the Department’s Consolidated Fiscal Year
              1996 Financial Statements, April 23, 1997

WR-FS-97-04 Report on Matters Identified at the Richland Operations Office
              During the Audit of the Department’s Consolidated Fiscal Year
              1996 Financial Statements, April 25, 1997

WR-FS-97-05 Report on Matters Identified at the Albuquerque Operations Office
              During the Audit of the Department’s Consolidated Fiscal Year
              1996 Financial Statements, June 20, 1997

WR-V-97-02 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Battelle-Pacific Northwest National Laboratory Under Department
           of Energy Contract No.DE-AC06-76RL01830, May 2, 1997

WR-V-97-03 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Westinghouse Hanford Company Under Department of Energy
           Contract No. DE-AC06-87RL10930, May 8, 1997
                              REPORTS ISSUED

WR-V-97-04 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Mason & Hanger Corporation Under Department of Energy Contract
           No. DE-AC04-91AL65030, June 24, 1997

WR-V-97-05 Assessment of Changes to the Internal Control Structure and Their
           Impact on the Allowability of Costs Claimed by and Reimbursed to
           Los Alamos National Laboratory Under Department of Energy
           Contract No. W-7405-ENG-36, August 1, 1997




                     INSPECTION PUBLIC REPORTS

IG-0406      Review of Proposed Subcontract for Outsourcing Information Technology
             June 2, 1997

INS-L-97-04 Inspection of Department’s Math and Science Equipment Gift Program,
             April 24, 1997

INS-L-97-05 Inspection Report on the Department of Energy’s Marshall Islands Medical
             Program, June 25, 1997

INS-L-97-06 Inspection Report of Funding and Building Code Compliance Relating to
             the Construction of Building 277a, Hanford Site, July 2, 1997
                              REPORTS ISSUED


INSPECTOR GENERAL REPORTS AVAILABILITY

On the Internet

     Office of Inspector General reports are available in plain text format (ASCII) to
anyone with Internet Gopher (a simple client/server protocol used to organize access to
Internet resources), or file transfer protocol (FTP) capability. Users can find the reports at
gopher.hr.doe.gov, selecting “Department of Energy Information” from the first menu,
and then selecting “DOE Inspector General Reports.” Published reports can also be
obtained via anonymous FTP at vm1.hqadmin.doe.gov. Once at that location, the user
can go to the IG directory to download available reports.

By U.S. Mail

      Persons wishing to request hardcopies of reports to be mailed to them may do so by
calling the automated Office of Inspector General Reports Request Line at (202) 586-
2744. The caller should leave a name, mailing address, and identification number of the
report needed. If the report’s identification number is unknown, then the caller should
leave a short description of the report and a telephone number where the caller may be
reached in case further information is needed to fulfill the request.

Requests by Telefax

    In addition to using the automated Office of Inspector General Reports Request Line,
persons may telefax requests for reports to (202) 586-3636. Telefaxing requests may be
especially convenient for people requesting several reports.

Point of Contact for More Information

     Persons with questions concerning the contents, availability, or distribution of any
Office of Inspector General report may contact Wilma Slaughter by telephone at (202)
586-1924 or via the Internet at wilmatine.slaughter@hq.doe.gov.
                                     SECTION IV




                                 STATISTICS




        This section lists audit reports issued before the beginning of the semiannual
reporting period for which no management decisions have been made by the end of the
reporting period, the reasons management decisions have not been made, and the
estimated dates (where available) for achieving management decisions. This section also
presents audit statistics on questioned costs, unsupported costs, and dollar value of
recommendations resulting from audit reports issued during this reporting period. In
addition, this section presents statistics on inspection and investigative results achieved
during this semiannual reporting period.




49
                                   STATISTICS

                                     DEFINITIONS

The following definitions, based on the Inspector General Act of 1978, apply to
terms used in this Semiannual Report.

Questioned Cost: A cost which the Inspector General questions because of:

   1. An alleged violation of a provision of a law, regulation, contract, grant, cooperative
      agreement, or other agreement or document governing the expenditure of funds;

   2. A finding that, at the time of an audit, such cost is not supported by adequate
      documentation; or

   3. A finding that the expenditure of funds for the intended purpose is unnecessary or
      unreasonable.

Unsupported Cost: A cost which the Inspector General questions because the Inspector
General found that, at the time of an audit, such cost is not supported by adequate
documentation.

Disallowed Cost: A questioned cost which Department management, in a management
decision, has sustained or agreed should not be charged to the Government.

Recommendation That Funds Be Put to Better Use (“Savings”): An Inspector General
recommendation that funds could be used more efficiently if Department management took
actions to implement and complete the recommendations, including:

   1. Reduction in outlays;

   2. Deobligation of funds from programs or operations;

   3. Withdrawal of interest subsidy costs on losses or loan guarantees, insurance or bonds;

   4. Costs not incurred by implementing recommended improvements related to
      Department operations, contractors, or grantees;

   5. Avoidance of unnecessary expenditures noted in preaward reviews of contract or grant
      agreements; or

   6. Any other savings which are specifically identified.
                                   STATISTICS

Management Decision: The evaluation by Department management of the findings and
recommendations included in an audit report and the issuance of a final decision by
Department management concerning its response to such findings and recommendations,
including actions concluded to be necessary.

Final Action: The completion of all actions that Department management has concluded, in
its management decision, are necessary with respect to the findings and recommendations
included in an audit report. In the event that Department management concludes no action is
necessary, final action occurs when a management decision has been made.
                                      STATISTICS

                            AUDIT REPORT STATISTICS
                             April 1 through September 30, 1997

The following table shows the total number of operational and financial audit reports, and
the total dollar value of the recommendations.

                              Total        One-Time          Recurring              Total
                            Number          Savings            Savings            Savings

Those issued before the
reporting period for
which no management
decision has been made:           6     $339,616,962        $45,804,800      $385,421,762

Those issued during the
reporting period:                42      $98,198,874      $113,510,000       $211,708,874

Those for which a
management decision was
made during the reporting
period:                          26     $395,849,049      $122,914,800       $518,763,849

Agreed to by management:                 $49,766,880         $7,351,040       $57,117,920
Not Agreed to by management:            $323,086,479        $25,600,000      $348,686,479

Those for which a
management decision is
not required:                    13                $0                $0                 $0

Those for which no
management decision had
been made at the end of
the reporting period*:            9      $64,962,477      $126,363,760       $191,326,237

*NOTE: The figures for dollar items include sums for which management decisions on the
savings were deferred.
                                    STATISTICS

                          AUDIT REPORT STATISTICS


The following table shows the total number of contract audit reports, and the total dollar
value of questioned costs and unsupported costs.

                                   Total              Questioned          Unsupported
                                 Number                    Costs                Costs

Those issued before the
reporting period for
which no management
decision has been made:                11             $9,339,750                $84,241

Those issued during the
reporting period:                       0                      $0                     $0

Those for which a
management decision was
made during the
reporting period:                       7             $2,621,670                      $0

Value of disallowed costs:                           $418,722.60                      $0
Value of costs not disallowed:                     $2,202,947.40                      $0

Those for which a
management decision is
not required:                           0                      $0                     $0

Those for which no
management decision had
been made at the end of
the reporting period*:                  4            $6,717,811*                $84,241

*This bottom line figure has been adjusted downward by $269 to the correct figure of
$6,717,811 due to rounding on one monetary impact statement submitted to the Office of
Inspector General.
                                    STATISTICS


             REPORTS LACKING MANAGEMENT DECISION

The following are audit reports issued before the beginning of the reporting period for which
no management decisions have been made by the end of the reporting period, the reasons
management decisions have not been made, and the estimated dates (where available) for
achieving management decisions. These audit reports are over 6 months old without a
management decision.

The Contracting Officers have not yet made decisions on the following contract reports for a
variety of reasons. They include delaying settlement of final costs questioned in audits
pending completion of review of work papers, heavy work loads delaying the closing process,
pending verification of overhead allocation methodology, and reviewing revised Cost
Accounting Standards disclosure statements. The Department has a system in place which
tracks audit reports and management decisions. Its purpose is to ensure that
recommendations and corrective actions indicated by audit agencies and agreed to by
management are indeed addressed and effected as efficiently and expeditiously as possible.

ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures With
                      Respect to Temporary Living Allowance Costs Claimed Under
                      Contract No. DE-AC09-88SR18035, October 1, 1987, to September
                      20, 1990, Bechtel National, Inc., San Francisco, California, and Bechtel
                      Savannah River, Inc., North Augusta, South Carolina, May 3, 1993
                      (Estimated date of closure: January 20, 1998)

WR-C-95-01            Report on Independent Final Audit of Contract No. DE-AC34-
                      91RF00025, July 26, 1990, to March 31, 1993, Wackenhut Services,
                      Inc., Golden, Colorado, March 13, 1995
                      (Estimated date of closure: March 31, 1998)

WR-C-96-01            Review of Mason & Hangar-Silas Mason Company, Inc., Cost
                      Accounting Standards Compliance, October 30, 1995
                      (Estimated date of closure: March 31, 1998)

ER-C-97-01            Report on the Interim Audit of Costs Incurred Under Contract No.
                      DE-AC24-92OR21972 From October 1, 1994, to September 30, 1995,
                      Fernald Environmental Restoration Management Corporation, Fernald,
                      Ohio, December 20, 1996
                      (Estimated date of closure: January 31, 1998)
                                  STATISTICS

Additional time was necessary to develop management decisions for the following reports.
Further explanations for the delays follow each audit report.

AP-B-95-01           Audit of Management and Control of Information Resources
                     at Sandia National Laboratories, November 1, 1994
                     (Management’s final decision on this report is awaiting resolution of
                     one outstanding issue. It is estimated that this will occur by January
                     31, 1998.)

WR-B-96-07           Subcontracting Practices at the Nevada Operations Office and its
                     Management and Operating Contractor, May 10, 1996
                     (Management’s final decision on this report is pending the resolution
                     of several complex issues. This should occur by February 15, 1998.)

IG-0399              Audit of the U.S. Department of Energy’s Identification and Disposal
                     of Nonessential Land, January 8, 1997
                     (The management decision is going before the Departmental Internal
                     Control and Audit Review Council for resolution. This should occur
                     by December 30, 1997.)
                                                   STATISTICS

                                     INVESTIGATIVE STATISTICS

                          The investigative statistics below cover the period from
                                  April 1 through September 30, 1997

Investigations open at the start of this reporting period:............................................... 294
Investigations opened during this reporting period ......................................................... 68
Investigations closed during this reporting period .......................................................... 44
Investigations open at the end of this reporting period ................................................. 318

Debarments/Suspensions ............................................................................................... 32
Investigations Referred to Management for Recommended Positive Action ..................... 9
Complaints Referred to Management for Review and Followup ....................................... 1
Administrative Disciplinary Actions Taken....................................................................... 9

Investigations Referred for Prosecution ......................................................................... 16
        Acceptedu.......................................................................................................... 14
        Declinedu........................................................................................................... 16

          Indictments .......................................................................................................... 6
          Convictions.......................................................................................................... 7
          Pretrial Diversions ............................................................................................... 2

Fines, Settlements, and Recoveriesuu ...........................................................$1,953,963.59
u
 Some of the investigations accepted or declined during this 6-month period were referred
for prosecution during a previous reporting period.
uu
     Some of the money collected was the result of Task Force Investigations.

                                                      Hotline Statistics

Complaints Received via the Hotline............................................................................ 246
Complaints Received via the General Accounting Office .................................................. 2
Total Complaints Received .......................................................................................... 248

Investigations Opened on Hotline Complaints.................................................................. 7
Complaints Resolved or Pending Resolution ................................................................ 143
Complaints That Required No Investigation by OIG ...................................................... 98
Total Complaints Disposition....................................................................................... 248
                                                  STATISTICS

                                         INSPECTION STATISTICS

                            The inspection statistics below cover the period from
                                    April 1 through September 30, 1997


                 Allegation-Based, Reprisal, and Management System Inspections

Inspections open at the start of this reporting period .................................................... 190
Inspections opened during this reporting period ............................................................. 37
Inspections closed during this reporting period .............................................................. 56
Inspections open at the end of this reporting period ..................................................... 171
Reports issuedu ............................................................................................................. 17
Allegation-based inspections closed after preliminary review.......................................... 12
Reprisal complaint actions during this reporting period ................................................ ..23
        Reprisal complaints dismissed ................................................................12
        Reports of reprisal inquiry issued ............................................................8
        Reprisal complaints settled .......................................................................2
        Reprisal complaints withdrawn.................................................................1
Inspection recommendations
        Accepted this reporting period ........................................................................... ..4
        Implemented this reporting period...................................................................... 26
Complaints referred to Department management/others ............................................... 152
        Number of these referrals requesting a response for OIG evaluation ................... 69
Personnel management actions taken as a result of inspections
        or complaints referred to management............................................................... .15


u
     Reports include non-public reports such as administrative allegation reports.
----------------------------------------------------------------------------------------------


                                 FEEDBACK SHEET


----------------------------------------------------------------------------------------------


The contents of the October 1997 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. However, there may be
additional data which could be included or changes in format which would be useful to
recipients of the Report. If you have suggestions for making the report more responsive
to your needs, please complete this feedback sheet and return it to:

                                Department of Energy
                                Office of Inspector General (IG-13)
                                Washington, D.C. 20585

                                ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of Inspector
General or would like more information, please call Wilma Slaughter at (202) 586-1924 or
contact her on the Internet at wilmatine.slaughter@hq.doe.gov.
